     Department of Homeland Security

     ��������������������������



The Commonwealth of the Northern Mariana Islands’ 

 Management of Homeland Security Grant Program 

    Awards for Fiscal Years 2009 Through 2011





OIG-14-05                            November 2013

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                    November 7 2013


MEMORANDUM FOR:	             Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:	                       Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	                    The Commonwealth of the Northern Mariana Islands’
                             Management of Homeland Security Grant Program Awards for
                             Fiscal Years 2009 Through 2011

Attached for your action is our final report, The Commonwealth of the Northern Mariana
Islands’ Management of Homeland Security Grant Program Awards for Fiscal Years 2009
Through 2011. We incorporated the formal comments from the Office of Policy, Program
Analysis and International Affairs and the Commonwealth of the Northern Mariana Islands
in the final report.

The report contains nine recommendations aimed at improving the overall effectiveness of
the Commonwealth of the Northern Mariana Islands’ management of State Homeland
Security Program grants. Your office concurred with all of the recommendations. Based on
information provided in your response to the draft report, we consider recommendations
2 through 5 closed, and recommendations 7 and 8 resolved and open. Once your office has
fully implemented the recommendations, please submit a formal closeout letter to us
within 30 days so that we may close the recommendation(s). The memorandum should be
accompanied by evidence of completion of agreed-upon corrective actions and of the
disposition of any monetary amounts.

Recommendations 1, 6, and 9 remain unresolved. As prescribed by the Department of
Homeland Security Directive 077-01, Follow-Up and Resolutions for Office of Inspector
General Report Recommendations, within 90 days of the date of this memorandum, please
provide our office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation.
                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                               

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov. Until your response is received and evaluated,
recommendations 1 and 6 will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment




                                             2

September 23, 2013


Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W., Building 410
Washington, DC 20528

Dear Ms. Richards,

Williams, Adley & Company, LLP performed an audit of the Commonwealth of the
Northern Mariana Islands’ (CNMI) management of the Department of Homeland
Security’s State Homeland Security Program grants for fiscal years 2009 through 2011.
The audit was performed in accordance with our Task Order No. TPDFIGBPA100008,
dated September 24, 2012. This report presents the results of the audit, and includes
recommendations to help improve the CNMI’s management of the audited State
Homeland Security Program grants.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2011 revision. The audit was a performance audit, as defined by Chapter 2 of the
Standards, and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the CNMI, we did not
perform a financial audit, the purpose of which would be to render an opinion on
CNMI’s financial statements, or the funds claimed in the Financial Status Reports
submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions or need further assistance, please contact us at (202) 371-1397.

Sincerely,



Charbet M. Duckett, CPA, CGFM
Partner

                                 WILLIAMS, ADLEY & COMPANY-DC, LLP
                       Certified Public Accountants / Management Consultants
         th
   1030 15 Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                        www.williamsadley.com
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 2


              State Homeland Security Program Strategic Planning and Performance
                  Measurement ................................................................................................... 3 

              Recommendations ................................................................................................. 9 

              Management Comments and Auditor Analysis ................................................... 10 


              Financial and Progress Reporting ........................................................................ 11 

              Recommendations ............................................................................................... 12 

              Management Comments and Auditor Analysis ................................................... 12 


              Travel Expense Documentation ........................................................................... 13 

              Recommendation ................................................................................................. 14 

              Management Comments and Auditor Analysis ................................................... 14 


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology .......................................... 15 

              Appendix B:           Management Comments to the Draft Report ............................. 17 

              Appendix C:           Description of the Homeland Security Grant Program ................ 24 

              Appendix D:           CNMI Homeland Security and Emergency Management 

                                    Organization Chart ....................................................................... 25 

              Appendix E:           Threat and Hazard Identification and Risk Assessment ............... 26 

              Appendix F:           Report Distribution ...................................................................... 27 





www.oig.dhs.gov                                                                                                                 OIG-14-05

                      OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


   Abbreviations
           BSIR    Biannual Strategy Implementation Report
           CBRNE   Chemical, Biological, Radiological, Nuclear, and Explosive
           CNMI    Commonwealth of the Northern Mariana Islands
           DHS     Department of Homeland Security
           FEMA    Federal Emergency Management Agency
           FY      fiscal year
           HSEM    Homeland Security and Emergency Management
           HSGP    Homeland Security Grant Program
           OIG     Office of Inspector General
           SAA     State Administrative Agency
           SHSP    State Homeland Security Program
           SPR     State Preparedness Report
           SOP     standard operating procedures
           THIRA   Threat and Hazard Identification and Risk Assessment




www.oig.dhs.gov                                                                 OIG-14-05

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, requires the Department of Homeland Security (DHS), Office of Inspector General
   (OIG), to audit individual States’ and territories’ management of State Homeland
   Security Program grants. This report responds to the reporting requirement for the
   Commonwealth of the Northern Mariana Islands and its State Homeland Security
   Program grants.

   The objectives of the audit were to determine if the Commonwealth of the Northern
   Mariana Islands distributed and spent State Homeland Security Program grant funds
   (1) effectively and efficiently and (2) in compliance with applicable Federal laws and
   regulations. We also addressed the extent to which grant funds enhanced the
   Commonwealth of the Northern Mariana Islands’ ability to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other man-made
   disasters. The audit included a review of approximately $4.1 million in State Homeland
   Security Program grants awarded to the Commonwealth of the Northern Mariana
   Islands during fiscal years 2009 through 2011.

   In most instances, the Commonwealth of the Northern Mariana Islands spent grant
   funds in accordance with applicable Federal laws and regulations. However, we
   identified several areas in which the Federal Emergency Management Agency (FEMA)
   and the Commonwealth of the Northern Mariana Islands can improve its management
   of State Homeland Security Program grants. Specifically, the Commonwealth of the
   Northern Mariana Islands needs to revise its State homeland security strategy to include
   measurable objectives with realistic target dates for completion, perform periodic
   assessments of improved preparedness, and retain documentation for its vulnerability
   assessments. The Commonwealth of the Northern Mariana Islands also needs to
   maintain supporting documentation for travel expenses and to report financial and
   performance information timely.

   As a result of the issues discussed in the report, the Commonwealth of the Northern
   Mariana Islands could not fully assess whether State Homeland Security Program
   funding enhanced its preparedness and security. These issues existed because FEMA
   and the Commonwealth of the Northern Mariana Islands did not provide sufficient
   guidance, written policies and procedures, and oversight of the grant process. Our nine
   recommendations call for FEMA to initiate improvements which, when implemented,
   should help strengthen program management, performance, and oversight. FEMA and
   the Commonwealth concurred with all of the recommendations. Written comments to
   the draft report are incorporated as appropriate and are included in appendix B.

www.oig.dhs.gov                               1                                       OIG-14-05

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, protect against, respond
   to, and recover from terrorist attacks and major disasters. Within DHS, FEMA is
   responsible for administering the HSGP. To support preparedness, FEMA develops
   policies, ensures that adequate plans exist and are validated, defines capabilities
   required to address threats, provides resources and technical assistance to States, and
   synchronizes preparedness efforts throughout the Nation. The State Homeland Security
   Program (SHSP) grant is one element of the HSGP, designed to fund a wide range of
   preparedness activities, including planning, organization, equipment purchase, training,
   exercises, and management and administration costs. Appendix C contains a detailed
   description of the interrelated grant programs that constitute the HSGP.

   HSGP guidance requires the Governor of each State and Territory to designate a State
   Administrative Agency (SAA) to apply for and administer grant funding awarded under
   the HSGP. The SAA is the only entity eligible to apply for HSGP funds. The SAA is
   responsible for managing the grant programs in accordance with established Federal
   guidelines. The Governor of the Commonwealth of the Northern Mariana Islands (CNMI)
   designated the CNMI Office of Homeland Security as the State Administrative Agency.
   The SAA has recently merged with the Office of Emergency Management and is now
   called Homeland Security and Emergency Management (HSEM). The HSEM organization
   is depicted in Appendix D.

   During fiscal years (FY) 2009, 2010, and 2011, FEMA awarded the CNMI SHSP grant
   funds totaling approximately $4.1 million. Due to the relatively small size of the
   Territory, CNMI was not required to subgrant funds to local jurisdictions.

   Appendix A contains details on the audit’s objectives, scope, and methodology.

   Results of Audit
           In most instances, the CNMI spent SHSP grant funds in compliance with applicable
           Federal laws and regulations. However, we identified areas in which FEMA and
           CNMI can improve management of SHSP grant programs:

                  •   Strategic planning,
                  •   Financial and progress reporting, and
                  •   Travel expense documentation.


www.oig.dhs.gov                                   2                                     OIG-14-05

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           As a result, CNMI (1) could not fully assess whether SHSP funding enhanced its
           preparedness and security; and (2) may have hampered its and FEMA’s ability to
           effectively and efficiently monitor the grant expenditures. Also, we question
           travel costs amounting to $17,002.

           State Homeland Security Program Strategic Planning and Performance
           Measurement

           CNMI’s process for strategic planning contains weaknesses that minimize the
           program’s effectiveness. Specifically:

                  •	 State Homeland Security Strategy is not current;
                  •	 Strategic goals and objectives are not specific or measurable;
                  •	 Effectiveness of the State Homeland Security Grant Program was not
                     measured; and
                  •	 Insufficient support for threats, risks, and vulnerabilities data was not
                     retained.

           Consequently, CNMI was unable to demonstrate improvements to its approach
           to hazards of all types as funded by Federal grant funds, and did not have a basis
           for measuring improvements in its preparedness and response capabilities.

           State Homeland Security Strategy Is Not Current

           CNMI does not have a current State Homeland Security Strategy. HSEM has not
           updated the CNMI State Homeland Security Strategy since February 6, 2009. The
           strategy was developed with the assistance of a contractor and approved by the
           CNMI Homeland Security Advisor in FY 2009. The strategy contains outdated
           objectives and a Plan of Action and Milestones process that is not currently in
           use. Because the strategy was not revised, the objectives and steps in the
           strategy do not necessarily reflect the current objectives of CNMI’s Homeland
           Security Grant Program, which are focused on sustainment.

           The State Homeland Security Strategy serves as the basis for requesting funds.
           Funds received as part of the SHSP were provided for the purpose of
           implementing the goals, objectives, and steps contained within the approved
           strategy. The DHS State and Urban Area Homeland Security Strategy Guidance on
           Aligning Strategies with the National Preparedness Goal (2005) states that the
           State and Urban Areas Homeland Security Strategies should have strong
           foundations that support an ongoing process of review and refinement as new


www.oig.dhs.gov                                    3	                                        OIG-14-05

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           lessons are learned, new priorities are realized, and new homeland security
           guidance is released.

           Also the Homeland Security Grant Program Guidance and Application Kit
           recommends revising the State Homeland Security Strategy once every two
           years. This will ensure that existing goals and objectives reflect all FEMA mission
           areas and the National Priorities, implement the whole community approach to
           emergency planning and management to address the concerns and needs of
           local government, and reflect existing citizen preparedness efforts. In order to
           ensure that spending is congruent with national goals and current threats to and
           needs of the Territory, CNMI should have a process in place to review, revise,
           and update the State Homeland Security Strategy regularly.

           The Strategy--unchanged since FY 2009--was approved by FEMA in FY 2012 with
           no changes and including references to meetings held in 2007 and an upcoming
           2009 assessment of critical infrastructure. FEMA stated that they obtain
           information about updates in CNMI’s HSGP through annual investment
           justifications that describe the equipment, trainings, and programs for which the
           grant funds are to be used. However, this methodology had shortcomings. The
           investment justifications for FY 2009 and FY 2011 are tied to objectives in the
           Strategy, but the investment justifications for FY 2010 are not. While annual
           investment justifications may provide some important information regarding the
           strategy of CNMI, they do not provide a cohesive plan and measurable objectives
           like the Strategy is designed to do.

           For example, in the FY 2010 Investment Justification, there are 13 investments
           each with its own description, funding request, and milestones. However, there
           is no overview that ties the investments together in a cohesive package, nor do
           the investments provide measurable objectives.

           To its credit, the CNMI State Homeland Security Strategy provided for an
           evaluation plan to conduct periodic organizational reviews, and updates, on
           State Homeland Security Strategy objectives and goals, as well as the State
           Preparedness Report, Investment Justification Package initiatives, Emergency
           Operation Plan, and other Preparedness documents.

           However, because the evaluation plan was not implemented, there are no
           current, relevant goals and objectives, and implementation steps to accomplish
           those objectives. In addition, CNMI cannot be assured that actual steps
           performed are in line with the objectives, goals, and vision of the HSGP.


www.oig.dhs.gov                                 4                                        OIG-14-05

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Strategic Goals and Objectives are not Specific or Measurable

           The CNMI State Homeland Security Strategy contains many objectives that are
           not specific, are non-measurable, and are outdated or missing target completion
           dates. Consequently, the strategic goals and objectives in CNMI’s State
           Homeland Security Strategy do not provide an adequate basis for measuring
           progress.

           The DHS State and Urban Area Homeland Security Strategy Guidance on Aligning
           Strategies with the National Preparedness Goal, dated July 22, 2005, states that
           a comprehensive strategy should contain both broad based, long term goals and
           corresponding short term objectives that address areas of prevention,
           protection, response, and recovery enhancements within the State or Urban
           Area. The guidance also states that an objective sets a tangible and measurable
           target level of performance over time against which actual achievement can be
           compared, including a goal expressed as a quantitative standard, value, or rate.
           An objective should be:

                  •	 Specific, detailed, and focused - helping to identify what was to be
                     achieved and accomplished;
                  •	 Measurable - quantifiable, providing a standard for comparison, and
                     identifying a specific achievable result;
                  •	 Achievable - the objective is not beyond a State, region, jurisdiction, or
                     locality’s ability;
                  •	 Results oriented - identifies a specific outcome; and
                  •	 Time limited - a target date exists to identify when the objective will be
                     achieved.

           Table 1 includes examples where CNMI’s Strategy contained objectives that did
           not specifically identify what was to be achieved or accomplished, did not
           include a timeline, or did not provide a standard for comparison or
           measurement.




www.oig.dhs.gov                                    5	                                       OIG-14-05

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Table 1: Examples of State Homeland Security Strategy Shortcomings

           Goal 2:         Improve current Regional Preparedness planning.
           Objective 2.A: Include, as part of the CNMI Preparedness Plan review and update,
                           potential Jurisdictional Regional Collaboration.
           Step 2.A.1:     The CNMI Office of Homeland Security will lead and coordinate this
                           effort.
           Step 2.A.2:     The Office of Homeland Security Project Manager will coordinate with
                           various CNMI Department/Agency, stakeholders, and appropriate
                           private sector entity, and other organizations to identify potential
                           jurisdictional regional collaboration issues.
           Step 2.A.3:     Integrate this process into the overall Preparedness plans, policies, and
                           procedures Plan of Action and Milestones.
           Step 2.A.4:     Start small; identify and test regional collaboration for one or two
                           specific issues. Build on the success of these initial issues until full,
                           realistic jurisdictional regional collaboration is realized.
            Goal 6:        Enhance CNMI Exercise Program
            Objective 6.A: Update, enhance, implement, and manage CNMI exercise program
            Step 6.B.1:    The CNMI Office of Homeland Security Exercise Director will lead and
                           coordinate this effort.
            Step 6.B.2:    The Exercise Director will develop a Plan of Action and Milestones to
                           address all issues related with this initiative.
            Step 6.B.3:    Ensure Homeland Security Exercise and Evaluation Program (HSEEP)
                           compliance.
            Step 6.B.4:    Implement the updated CNMI Exercise Program.
           Source: CNMI Homeland Security Strategy FY 2009

           FEMA officials have not required the HSEM to update its strategy regularly
           because they do not believe this is a requirement of the HSGP, but rather a
           suggestion. Additionally, FEMA officials obtain their updates on the CNMI’s
           strategy through annual submission of investment justifications. Although the
           investment justification can provide useful information regarding CNMI’s
           proposed strategy, they do not provide the cohesive and measurable objectives
           that the State Homeland Security Strategy is designed to provide. Although the
           investment justifications for each year do provide anticipated completion dates
           for milestones for each project, the investment justifications submitted by HSEM
           do not contain specific objectives that can be used to measure improved
           preparedness and the success of the program.

           Effectiveness of the State Homeland Security Grant Program Was Not
           Measured

           HSEM does not track improved preparedness, gaps, deficiencies, or excesses of
           the Homeland Security Grant Program. This occurred because HSEM did not

www.oig.dhs.gov                                    6                                            OIG-14-05

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           establish baselines in the State Homeland Security Strategy from which to
           measure improved preparedness. As illustrated in the examples above, the
           Strategy does not provide the current level or what CNMI wants to achieve in an
           identified timeframe. For example Objective 6A should have indicated the
           number or percentage of CNMI first responder personnel already trained as of
           2009 and the training goal in terms of number or percentage of personnel and
           the estimated completion date.

           Also, although HSEM regularly discusses preparedness, risks, and needs of CNMI,
           it does not have measurable metrics to track or document the improved
           preparedness. The HSEM’s Chemical, Biological, Radiological, Nuclear, and
           Explosive (CBRNE) Weapons task force meets quarterly to discuss risks and
           preparedness. The task force has also met to prepare documents such as the
           Multi-Year Training and Exercise Plan and the State Preparedness Report in 2012
           as a way to discuss preparedness with stakeholders. However, HSEM does not
           track nor document its improved preparedness discussions nor compare its
           preparedness versus a baseline.

           Measuring improved preparedness allows HSEM, FEMA, and DHS to obtain an
           accurate view of the outcomes of the program. Without these measurements,
           FEMA and DHS may not have enough meaningful information to determine the
           impact of the program, which may affect their ability to report outcomes under
           the Government Performance and Results Act of 1993 and submit its National
           Preparedness Report as required under Presidential Policy Directive/PPD-8.

           Although HSEM prepared after-action reports as a result of exercises and
           provided some level of assessment, no training statistics were collected and
           analyzed to determine the level or impact on preparedness. Training is discussed
           informally and anecdotal responses are provided by participants as part of trip
           reports, but this information is not compiled in a comprehensive manner.

           Insufficient Support Not Retained for Threats, Risks, and Vulnerabilities Data

           HSEM appears to have evaluated the threat and vulnerabilities to measure the
           needs of CNMI. However, HSEM does not have a proper retention policy to
           maintain documentation that supports the source of the threat, risks, and
           vulnerability data. As a result, not having proper documentation could make the
           evaluation process more difficult in the event of turnover of HSEM staff.

           The members of the HSEM’s CBRNE task force meet quarterly to go over threats,
           risks, vulnerabilities, and the preparedness of CNMI. HSEM’s threat and

www.oig.dhs.gov                                7                                       OIG-14-05

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           vulnerability reports were compiled by the various CBRNE members representing
           several agencies within the government of CNMI, Federal entities and
           community stakeholders. Based on the conclusions reached in the meetings and
           any additional research performed, the HSEM Planner updated critical
           documents such as the State Preparedness Report, and the Emergency
           Operations Plan. HSEM was unable to produce documentation of the CBRNE task
           force meetings or the sources of their data. Per HSEM, the meetings usually
           resulted in direct edits to the documents which were later sent to the
           participants for concurrence.

           Although HSEM appears to have evaluated the threat and vulnerabilities to
           measure the needs of CNMI, HSEM does not have a proper retention policy to
           maintain documentation that supports the source of this data. Not having
           proper documentation could make the evaluation process more difficult in the
           event of turnover of HSEM staff. Proper documentation would allow for
           continuity and would clarify areas of responsibility within HSEM.

           Not having written policies and procedures, as well as high turnover within
           HSEM, contributes to issues in its grant management practices. HSEM currently
           does not have policies and procedures for the strategic planning, measurement,
           and documentation processes, which negatively impacts its ability to update its
           State Homeland Security Strategy and to assess improved preparedness, gaps,
           excesses, and deficiencies of its implementation of the State Homeland Security
           Grant Program.

           Insufficient documentation limits FEMA’s ability to determine the accuracy of
           reported risk and vulnerability data and could make the evaluation process more
           difficult in the event of turnover of HSEM staff.

           In April 2012, FEMA required State and local governments receiving FEMA
           preparedness grants to complete a Threat and Hazard Identification and Risk
           Assessment (THIRA) by December 31, 2012. The THIRA provides a
           comprehensive approach for identifying and assessing risks and associated
           impacts, using the core capabilities identified in the National Preparedness Goal.
           In addition to the THIRA, States and territories receiving FEMA preparedness
           grants are required to annually submit a State Preparedness Report. FEMA
           officials state that THIRA results and the State Preparedness Report will provide
           a quantitative summary of preparedness. However, we did not review the THIRA
           process because it was not within the scope of our review. See appendix E for
           more information about the THIRA.


www.oig.dhs.gov                                8                                        OIG-14-05

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #1:

           Advise HSEM to develop formal written policies and procedures for:
              •	 Updating its strategy to reflect current objectives of CNMI’s grant 

                  program, and 

              •	 Establishing goals, objectives, and implementation steps.

           Recommendation #2:

           Require HSEM to implement procedures to regularly evaluate, assess, and revise 

           the State Homeland Security Strategy. 


           Recommendation #3: 


           Require HSEM to update the State Homeland Security Strategy to: 

              •	 Reflect current goals, objectives, steps, timeframes, and measurements;
                  and
              •	 Contain specific, measurable, and time-limited goals and objectives that
                  would serve as the baseline to measure improved preparedness.

           Recommendation #4:

           Require HSEM to develop and implement a system of internal controls that
           would allow HSEM to routinely gather quantitative and qualitative performance
           data.

           Recommendation #5:

           Require HSEM to perform regular analysis of the gaps, excesses, and deficiencies
           of the CNMI’s strategy and preparedness.

           Recommendation #6:

           Require HSEM to retain sources of information and documentation used to
           develop and compile threat and hazard information.


www.oig.dhs.gov                                9	                                        OIG-14-05

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments and Auditor Analysis

           Management comments to recommendation 1. At our exit conference with
           FEMA to discuss the findings and recommendations as presented in the draft
           report, we agreed to separate the third bullet in recommendation 1 into a
           distinct recommendation. This newly created recommendation 6 will permit
           FEMA to effectively address potential corrective actions. We have also relabeled
           the subsequent recommendations 6 through 8 as 7 through 9.

           FEMA and CNMI concurred with the recommendations. FEMA did not specifically
           address recommendations 1 or 6. These recommendations were intended to
           ensure policies and procedures were in place to assist HSEM in executing its
           grant management functions and retain supporting documentation. The
           recommendations will remain unresolved and open until FEMA provides suitable
           corrective action plans and target completion dates.

           Regarding recommendations 2 through 5, according to FEMA, it has established
           and implemented a system to help states, territories, and urban areas establish
           measurable goals and objectives that will enable them to systematically measure
           improvements in capabilities and preparedness. The National Preparedness Goal
           and the National Preparedness System serves as the framework for assessing
           grant effectiveness. FEMA has developed and is implementing performance
           assessments that measure progress toward achieving the Goal. The THIRA will be
           used to create a baseline and targets for FY 2013 and beyond. FEMA has also
           redesigned the State Preparedness Report (SPR) to help states demonstrate and
           track preparedness improvement over time. The SPR is a standardized capability
           assessment that compares the THIRA targets to current capability, and
           documents any gaps that exist. Finally, the use of the THIRA, SPR and the
           investment justifications methodology provides the goals and assessment of
           progress against those goals.

           According to FEMA, CNMI has submitted its FY 2012 THIRA and SPR, and
           indicated in its FY 2013 application that its investments target a wide range of
           activities that align with the gaps outlined in the FY 2012 THIRA and SPR.

           We consider FEMA’s and CNMI’s actions responsive to the intent of
           recommendations 2 through 5. These recommendations are considered resolved
           and closed.




www.oig.dhs.gov                                10                                        OIG-14-05

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Financial and Progress Reporting 


           CNMI did not always submit quarterly Federal Financial Reports or Biannual
           Strategy Implementation Reports timely as required by the grant award and
           financial grant guidance. Consequently, the ability to effectively and efficiently
           monitor the grant expenditures for CNMI could be hampered by the untimely
           submission of the financial and progress reporting.

           The CNMI is required by the grant award and grant guidance to submit quarterly
           Federal Financial Reports and biannual progress reports (Biannual Strategy
           Implementation Reports, or “BSIR”). These reports are due within 30 days of the
           end of the reporting period.

           Of the 27 Federal Financial Reports submitted by HSEM through September 30,
           2012 for HSGP grants for FYs 2009 through 2011, four were submitted late as
           summarized in table 2:

           Table 2: Late Submission of Federal Financial Reports
                                               Submission Due      Actual Submission    Days
             Grant Year          To                 Date                  Date         Overdue
                              9/30/2009           10/30/09             1/20/10           82
                  2009
                              9/30/2011           10/30/11             11/2/11            3
                  2010        9/30/2011           10/30/11             11/2/11            3
                  2011        9/30/2011           10/30/11             1/23/12           85
           Source: DHS OIG Analysis of Federal Financial Reports

           According to the CNMI Department of Finance, the Federal Financial Reports for
           the HSGP 2009 and 2010 for the reporting period of July 1 to September 30,
           2011 were submitted three days late due to no available staff to process the
           reports. For the initial reports for HSGP 2009 and HSGP 2011, the grant had not
           been uploaded in the Payment and Reporting System. The grant was not
           established until January 20, 2010 and January 23, 2012, respectively.

           Many BSIRs were not submitted at all. Out of the 12 BSIRs that should have been
           submitted for HSGP FYs 2009 through 2011, only 6 were submitted. The missing
           BSIRs are as follows:

             •     Grant Year 2009 – December 2011
             •     Grant Year 2010 – June 2011, December 2011, and June 2012
             •     Grant Year 2011 – December 2011, and June 2012


www.oig.dhs.gov                                      11                                    OIG-14-05

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           HSEM did not have a proper system or policies and procedures in place to ensure
           that BSIRs were submitted within the 30 day requirement. In addition, we noted
           that FEMA officials have not emphasized the submission of missing or late BSIRs.

           The quarterly Federal Financial Reports and biannual BSIRs are designed to
           provide DHS and FEMA with financial and programmatic information about the
           grant program that can be used to monitor the implementation of the program.
           Therefore, the ability to effectively and efficiently monitor the grant
           expenditures for CNMI could be hampered by the untimely submission of the
           Federal Financial Reports and non-submission of the BSIRs. Also, when Federal
           Financial Reports and BSIRs are not submitted timely, the grant award states
           that CNMI could be prevented from drawing down funds while those Federal
           Financial Reports and BSIRs are delinquent. This could impact CNMI’s ability to
           procure goods and services necessary for its SHSP operations.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #7:

           Require HSEM to develop and update, as necessary, policies, procedures and
           controls to ensure timely submission of all reports in accordance with the grant
           guidelines in conjunction with Department of Administration.

           Recommendation #8:

           Obtain all late BSIR submissions, enforce the Federal Financial Report and BSIR
           submission requirements, and provide technical assistance as needed to
           facilitate timely submission.

           Management Comments and Auditor Analysis

           FEMA and CNMI concurred with the recommendations. FEMA will require HSEM
           to develop a handbook or standard operating procedures (SOP) within 180 days,
           will work with HSEM on the SOP’s design and development, and will ensure that
           reporting requirements are included in the financial and programmatic SOP.
           FEMA will require HSEM to submit all outstanding BSIR submissions within 90
           days.


www.oig.dhs.gov                               12                                        OIG-14-05

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           We consider FEMA’s actions responsive to the intent of recommendations 7 and
           8. These recommendations are considered resolved and will remain open until
           FEMA provides evidence of receipt of all BSIRs and development and
           implementation of a new SOP and staff guidance.

           Travel Expense Documentation

           HSEM was not able to provide adequate support for the per diem and other
           travel costs totaling $17,002 that were reimbursed from SHSP grant funds.
           Therefore, we question these disbursements.

           The CNMI did not have supporting documents for several travel disbursements
           reimbursed by the SHSP grant. The CNMI could not support costs claimed for 15
           travel disbursements that totaled $17,002. Additionally, there were no
           documents supporting costs for per diem, housing allowance claimed, nor the
           refund of per diem provided when course registration included housing and
           meals.

           Table 3: Travel Disbursements Without Sufficient Documentation
                                         Total         Disbursements
                                                                           Unsupported
                  Grant Year        Disbursements      with Insufficient
                                                                             Amount
                                        Tested             Support
                    2009                  25                   5              $6,593
                    2010                  32                   1              $1,160
                    2011                  28                   9              $9,249
                    Totals                85                  15             $17,002
           Source: DHS OIG Disbursement Testing

           Code of Federal Regulations Title 44 Part 13.20(b)(6), Source documentation,
           requires that accounting records must be supported by such source
           documentation as cancelled checks, paid bills, payrolls, time and attendance
           records, contract and subgrant award documents, etc.

           Although HSEM provided travel authorizations, they were not able to locate the
           support for the per diem and other costs totaling $17,002 that were reimbursed
           from SHSP grant funds. Therefore, we question these disbursements in the
           amount of $17,002.




www.oig.dhs.gov                                   13                                   OIG-14-05

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #9:

           Require HSEM to either provide support for, or repay, the SHSP disbursements in
           the amount of $17,002.

           Management Comments and Auditor Analysis

           FEMA and CNMI concurred with the recommendation. FEMA will require HSEM
           to provide all related source documentation for the questioned travel and will
           review to ensure they meet allowability criteria.

           We consider FEMA’s actions responsive to the intent of recommendation 9.
           However, this recommendation will remain unresolved and open until FEMA
           provides a timetable for completion.




www.oig.dhs.gov                               14                                      OIG-14-05

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   DHS OIG was established by the Homeland Security Act of 2002 (Public Law 107-296) by
   amendment to the Inspector General Act of 1978. This is one of a series of audit,
   inspection, and special reports prepared as part of our oversight responsibilities to
   promote economy, efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine the plans developed by CNMI
   to improve preparedness and response to hazards of all types, the goals set within those
   plans, the measurement of progress towards the goals, and the assessments of
   performance improvement that result from this activity. Further, the scope included the
   assessment of these activities within the context of risk to determine if CNMI’s plans
   produced strategic performance improvements related to the highest areas of risk
   rather than merely producing improvements in a broader sense.

   Together, the entire Homeland Security Grant Program and its five interrelated grant
   programs fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, exercises, and management and administration costs.
   Because of the interrelationship of these grant programs, all were considered when
   evaluating the planning cycle and the effectiveness of the overall grant program.
   However, only State Homeland Security Program funding, and equipment and programs
   supported by the grant funding, were reviewed for compliance. The scope of the audit
   included the State Homeland Security Program grant awards for FYs 2009, 2010, and
   2011, as shown in table 4:

   Table 4: SHSP Awards to CNMI FYs 2009 through 2011
   Grant Program          FY 2009       FY 2011               FY 2011             Total
   SHSP                   $1,430,000      $1,469,600        $1,157,680        $4,057,280
   Source: FEMA

   We visited the State Administrative Agency, the Homeland Security and Emergency
   Management. The team reviewed a statistical sample of the State Homeland Security
   Program grant’s expenditures representing 43 percent of the dollar value expended for
   all grant years to determine the sufficiency of internal controls. CNMI did not subgrant
   any funds.

   We conducted this performance audit between October 2012 and April 2013, pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted

www.oig.dhs.gov                               15                                          OIG-14-05

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.

   Although this audit included a review of costs claimed, we did not perform a financial
   audit of those costs. This was a performance audit as defined by Chapter 2 of the
   Government Auditing Standards, and included a review and report of program activities
   with a compliance element.




www.oig.dhs.gov                              16                                      OIG-14-05

                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                      U.S. Depanmcnt or llomclaml Security
                                                                                      Wa:;;hington. DC 20472.




                                                                         {I; FEMA
                                                 AUG 0 t 2013

              MEMORANDUM FOR:               Anne L. Richards
                                            Assistant Inspector General for Audits (010)
                                            IJepartment of Homel and Securi ty

                                                                , / .�L[A�
              FROM:                    \#David J. Kaufman ��-·
                                       \) Associate Administrator for
                                          Po licy, Program A na lysis and International Affairs
                                            f-ederal Emergency Management Agency (f-EMA)


              SUBJECT:                      FEMA's Response t o OIG-12-123-AUD-FEMA Draft Report:
                                            "The Commonwealth of the Northern Mariana Island's [sic]
                                            Management (CNM!) of State Homeland Security Program
                                            (SHSP) Grdnts Awarded During Fiscal Years 2009-2011··.



              Thank you for the opp or tunity to n::vit:w and comment on O!G-12-123-AUD-FEMA Draft
              Report: "The C ommonwealth of the Northern Mariana Island's [sic] Manageme nt of S tate
              Homeland Security Program Grants Awarded During Fiscal Years 2009-20 II". The draft report
              contains eight (8) recommendations for which FEMA concurs with all 8 recommendations.
              FEMA has p rovided a consolidated response for recommen datio ns 1-5.


              OJG Recommenda ti on 1; We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate advise Office of Home land Secu rity and bme rgency Management
              (OHSEM) lo develop form al written pol icies and procedures for:
                         •   U pdating its strategy to reflect cu rrent objectives of CNMI's grant program.
                             Establishing goa ls, objcctiYcs. and implementation steps; and
                         •   Reta ini ng sources of information and doc umen tati on used to de velop and compile
                             threat and ha7�rd information.

              FEMA Response to Recommendations I: Concur. (See consolidaled response belowfor
              recommendalions 1�5)


              OIG Recommendation 2: We recommend that the FEM A Assistant Administrator, Grant
              Programs Directorate require 01-lSEM to implement procedures to regularly evaluate, a sses.
                                                                             ·
                                                                                                              ._, and
             reYise the State Homeland Security Strategy.


              FEMA Response to Recommendations 2: Concur. (See consolidated response belowjiu·
             recommendalions 1-5)


                                                                                     www.fema.gov




www.oig.dhs.gov                                                17                                                            OIG-14-05

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Recommendation 3: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require OHSEM to update the State Homeland Security Strategy to:
                    • Reflect current goals, objectives, steps, timeframes, and measurements;
                    • Contain specific, measurable, and time-limited goals and objectives that would serve
                        as the baseline to measute improved preparedness

              FEMA Response to Recommendations 3: Concur. (See consolidated response below.for
              recommendations 1-5)

              OIG Recommendation 4: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require OHSEM to develop and implement a system of internal controls
              that would allow OHSEM to routinely gather quantitative and qualitative performance data.

              FEMA Response to Recommendations 4: Concur. (See consolidated response below for
              recommendations 1-5)

              OIG Recommendation 5: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require OHSEM to perform tcgular analysis of the gaps, excesses, and
              defiCiencies of the CNMI' s strategy and preparedness.

              FEMA Consolidated Response to Recommendations 1, 2, 3, 4 and 5: Concur. The OIG has
              recommended that FEMA help states, territories and urban areas establish measurable goals and
              objectives that will enable them to systematically measure improvements in first responder
              capabilities and statewide preparedness. FEMA has established and implemented a system to do
              exactly that, as described below.

              FEMA has made substantial progress since the issuance ofOIG-12-123-FEMA Draft Report
              "The Commonwealth of the Northern Mariana Island's [sic] Management of State Homeland
              Security Program Grants Awarded During Fiscal Years 2009- 2011". Among other changes, the
              National Preparedness Goal (the Goal) and the National Preparedness System now serve as the
              framework for assessing grant effectiveness. FEMA's strategy for developing metrics and
              assessing grant performance begins with the Goal.

              The Goal defines the core capabilities necessary to prepare for the threats and hazards that pose
              the greatest risk to the security of the Nation; this includes concrete, measurable objectives to
              manage those risks. The Goal's capability targets provide concrete statements of the Nation's
              requirements in each core capability.

              Measuring Grant Effeetiveness

              As part of the National Preparedness System, FEMA has developed and is implementing
              performance assessments that measure progress toward achieving the GoaL FEMA's strategy is
              to base assessments on the principles that the Nation needs to understand existing risks, use those
              risks to determine required capabilities, assess current capability levels against those
              requirements, and track its progress in closing identified capability gaps.



                                                              2




www.oig.dhs.gov                                               18                                                    OIG-14-05

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              In 2012, FEMA released a consistent methodology for determining risks in the Comprehensive
              Preparedness Guide 201: Threat and Hazard Identification and Risk Assessment (THIRA) Guide
              (CPG-201). CPG-201 details a five-step process jurisdictions can use to achieve desired
              outcomes and capability targets for each of the core capabilities. This approach allows a
              jurisdiction to establish its own capability targets based on the risks it faces.

              On December 31, 20 12, states, territories, and major urban areas receiving Homeland Security
              Grant Program (HSGP) funds were required to submit their THIRAs to FEMA. Once each
              jurisdiction ha~ determined capability targets through the THIRA process, it. estimates its current
              capability levels against those targets.

              Also in 2012, states and territories were required to submit State Preparedness Reports (SPRs) to
              FEMA. The THIRA and SPR processes are scalable to allow sub-jurisdictions, sub-grantees and
              subject matter ex:perts to provide input to the state or territory. Taken together, the THIRA
              results and the SPR identify capability needs and gaps. The THIRA and SPR results highlight
              gaps in capability and the progress of grantees in clo~-ing those gaps over time. .F EMA reports
              the results of the capability assessments annually in the National Preparedness RePQrt (NPR).

              Sustaining, Building and Dell,•erlng Capabilities

              Having estimated capability requirements, the nex:t component of the National Preparedness
              System is to build and sustain capabilities. This step ties grant investments directly to needs and
              shortfalls. Grantees address documented capability requirements and gaps in their grant
              applications. In the Investment Justifications (IJ) submitted in the grant application, grantees
              must specifically identify the core capability or capabilities, the priority of the core capability as
              well as the capability gaps noted in their SPR that investment intends to address.

              In addition, the grantee must identify the specific outcome(s) that the investment will yield.
              FEMA verifies completion of the investment/project through its programmatic monitoring and
              spending on the investment through the Biannual Strategy Implementation Report (BSIR), also a
              tool used in the monitoring process. Since the period of performance for the Homeland Security
              Grant Program is two years, a time limit is set for completion of the project once it is funded.

              FEMA addressed the OIG recommendation for States to establish SMART goals and objectives
              that will enable States and Territories to systematically measure improvements in f~rst responder
              capabilities and statewide preparedness by requiring states to use a set of tools including the
              THIRA, SPR, and IJ's. Strategy updates are encouraged but not required as the THIRA, SPR and
              IJ methodology provide the goals and assessment of progress against those goals.

              Finally, CPG 201: Threat and Hazard Identification and Risk Assessment Guide
              Supplement 1: Toolkit provides all the required templates to complete the THIRA process
              including information and documentation used to develop and compile threat and hazard
              information. As the THIRA will be an annual iterative process, subsequent iterations will build
              on the documents from previous years.




                                                                3




www.oig.dhs.gov                                                 19                                                     OIG-14-05

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              CNMl has submitted their FY 2012 THIRA and SPR In their FY 2013 Homeland Security Grant
              Program application, CNMT indicated that their investments target a wide range of activities
              from equipment purchases to full scale exercises that align with gaps outlined in the FY 20 12
              THIRA and SPR. Further, in their Law Enforcement and First Responder Enhancement
              investment, CNMl stated that vulnerabilities documented in the latest TIDRA and SPR will be
              the guiding documents for prioritizing projects under this investment.

              FEMA believes that use of the THIRA, SPR and IJ satisfies the intent of these recommendations
              and requests that they be closed.

              OIG Recommendation 6: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require OHSEM to develop and update, as necessary, policies, procedures
              and controls to ensure timely submission of all reports in accordance with the grant guidelines in
              conjunction with Department of Administration.

              FEMA Response to Recommendation 6: Concur. FEMA will require within 180 days of the
              date of the final report that the OHSEM develop a handbook for staff that can be used as a guide
              or Standard Operating Procedure (SOP), which will include policies and procedures to ensure all
              required reports are submitted on time. The guide ?till be designed as a hand off document new
              staff or existing staff can use to guide them through the various financial and programmatic
              reporting requirements. The FEMA Program Analyst (PA) will work closely with CNMI in its
              design and development.

              FEMA believes this action will satisfy the intent of the recommendation and the
              recommendation should remain resolved and open pending the submission of a CNMI Homeland
              Security Grant Program financial and programmatic reporting SOP.

              OIG Recommendation 7: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate obtain all late BSIR submissions, enforce the Federal Financial Report and
              BSIR submission requirements and provide technical assistance as needed to facilitate timely
              submission.

              FEMA Response to Recommendation 7: Concur. FEMA will ensure that CNMI completes
              this task by requiring the State Administrative Agency (SAA) to submit all outstanding BSJR
              submissions to GPD within 90 days of the date of the final report The P A will also ensure that
              the SAA includes specific reporting requirements for the BSIR reports in the proposed, CNMI
              Homeland Security Grant Program financial and programmatic reporting SOP.

              FEMA believes these steps will satisfy the intent of the recommendation and the
              recommendation should remain resolved and open pending implementation of new SOP and staff
              written guidance.

              OJG Recommendation 8: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require OI-ISEM to either provide support for, or repay, the SHSP
              disbursements in the amount of$ 17,002.




                                                              4




www.oig.dhs.gov                                              20                                                    OIG-14-05

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              FEMA Response to RecommeodatioD 8: Conc:ur. FEMA will request and review all related
              source documentation for the questioned traYel to ensure it meets the allow ability criteria for
              staff to attend required trainings or planning meetings where travel is necessary. If it is
              determined the travel was not allowed, was unauthorized, or no source documentation exists,
              FEMA will initiate a debt collection for the amounts determined to be disallowed.

              FEMA believes this satisfies the intent of the recommendation and it should remain open and
              resolved pending FEMA's final review and determination based on the source documentation
              CNMI provides.

              Thank you again for the opportunity to comment on OIG-12-123-AUD-FEMA Draft Report:
              "The Cmnmonwealth of the Northern Mariana Island's [sic] Management (CNMI) of State
              Homeland Security Program Grants Awarded During Fiscal Years 2009-2011" and for the work
              that you and your team have done to better inform us throughout this audit so that we may
              enhance the program's overall effectiveness. We look forward to your final report for this audit.
              Please direct any questions regarding this response to Gary McKeon, FEMA' s Chief Audit
              Liaison, at 202-646-13 08.




                                                              5




www.oig.dhs.gov                                              21                                                   OIG-14-05

                                              OFFICE OF INSPECTOR GENERAL
                                                     Department of Homeland Security




                                               COMMONWEALTH OF THE                 ~ORTHERN       MARIANA ISLANDS
                             HOMELAND SECURITY AND EMERGENCY MANAGEMENT
                                                             OFFICE OF THE GOVERNOR
                             Honorable Governor Eloy S. hlos                                                                 Marvin K. Seman, SAHSEM
                             Honorable Lt. Governor Jude U. Hofsdmeider




                  July 18, 2013

                  Charbet Duckett
                  Partner
                  Williams-Adley
                  1030 15th Street, NW, Suite 350 West
                  Washington, DC 20005

                  From:               Marvin K. Seman, Special Assistant for HSEM

                  Subject:           OIG Audit FY 2009-2011 Draft Report Comments


                  \1s. Duckett:

                  On behalfofmyselfand the staff ofCNMI Homeland Security and Emergency \1anagement, I would
                  like to extend sincere appreciation to you and the Williams Adley team for the valuable information and
                  guidance gleaned throughout the course of your work with us. The draft report provided to us has been
                  informative and will certainly play an importantin role in the improvement of our programs and
                  processes, particularly as HSEM moves forward with its responsibility as the CNMI's all-hazards
                  preparedness entity.

                  HSEM has completed review of the draft report of the C:t\MI's Office of the Inspector General audit
                  findings dated Jnne 2013 and finds no significant errors or omissions in the report. The findings were
                  outlined as follows:

                           1. Strategic Planning and Performance Management- NO COMME!\T
                                 o State Homeland Security Strategy is not current;
                                 o Strategic goals and objectives are not specific or measurable;
                                 o Effectiveness ofthe State Homeland Security Grant Program was not measured; and
                                 o Support for threats, risks, and vulnerabilities data was not retained.
                           2. Performance and Financial Reporting- NO COMMENT
                                 o 6 of 12 BS IRs were late
                                 o 4 of27 FSRs were late
                           3. Travel Expense Documentation- NO COMMENT

                  HSEM has begun to address the programmatic and financial findings documented in the report by
                  improving existing internal processes and controls and creating them where there were none.
                  Recommendations noted in the report and discussed during site visits are taken into acconnt when
                  refining our program.


                                                         can~   Hox 10007, Capttol ffill, Satpan, MP 96950
                          Teley
                           a dhoYn.e' (670) 664-2216 (m.Unlino), (670) 322-9572.927418001-3 Fa,>imile (670) 664-2118 (mainline), 322-7743       # J
                                                                                                                                                A
         $fARe                          CNMIDISPATCHCENTER(2417i Tel. No. (670) 23 7-8000/3Fax:'<o. (570)322-9500
                                                                       Community
                                                                                                                                   -      e  • _ ~-
                                                                                                                                   Lg~_t!,.<!Q1f Ready"




www.oig.dhs.gov                                                                  22                                                                       OIG-14-05

                                            OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security




                                              COMMONWEALTH OF THE NORT HERN MARIANA I SLANDS
                          HOMELAND SECURITY AND EMERGENCY MANAGEMENT
                                                            OFFI CE OF THE GOVERNOR
                           Honorable Governor Eloy S. Inos                                                                  Marvin K. Seman, SAHSEI\.1
                           Honorable Lt. Governor Jude U. Hofschneider




                  HSE M has identified two minor p oints of clarification that should be incorporated into the final dmft.
                  First. the use of the abbreviation "OHSEM" and its expanded title should be revised to read "HSEM" or
                  "Homeland Security and Emergency Management." Secondly, the organization chart included as
                  Appendix D does not accurately reflect the HSEM structure. An updated copy ofthe chart will be
                  provided immediately.

                  HSEM acknowledges that the report is a draft and looks forward to receiving a final version for review.
                  Once completed, HSEM ¥~ill formally document its corrective actions for the identified findings and
                  provide copies to DHS /FEMA and your organization.

                  Should you have any questions, please contact me at marvin.seman@gmail.com or at (670) 664-2216.

                  Thank you.




                  Marvin K. Seman
                  Special Assistant for HSEM




                                                       Caner Y cx 10007, Capitol ffill , §alp an, MP 96§50
                         a dhoVn.•' (670) 664-2216 (mainline), (670 ) 322-9572.'9274/8001-3 Faorunil" (670) 664-2218 (mainlme), 322-7743
                        Telep                                                                                                                A   ~.

         $fARe                        CNMIDISPATCH CENTER (24/7) Tel. No. (670) 237-8000/3FaxNo. (610) 322-9500
                                                                     Community
                                                                                                                                  -   4 _ ~-
                                                                                                                                         0
                                                                                                                                  Lg~~mf Ready~




www.oig.dhs.gov                                                                23                                                                        OIG-14-05

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Description of the Homeland Security Grant Program
   The HSGP provides Federal funding to help State and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. The HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the States and Territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the State Homeland Security Strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable costs
      for the urban areas are consistent with the SHSP. Funding is expended based on the
      Urban Area Homeland Security Strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   •	 Metropolitan Medical Response System
   •	 Citizen Corps Program
   •	 Operation Stonegarden (beginning FY 2010)




www.oig.dhs.gov                               24                                	      OIG-14-05

                                         OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security


   Appendix D
   CNMI Homeland Security and Emergency Management
   Organization Chart
                                                                        Special Assistant for Homeland Security
                                                                             and Emergency Management



                                                                        Deputy Special Assistant for Homeland
                                                                        Security and Emergency Management


            Rota Field Office                   Tinian Field Office
                                                                                                                  Emergency Management
                                                                                                                         Division
         HSEM Representative                HSEM Representative




         Administration & Accounting Division                                 Grants Program Division             Resource, Tech. and Comm.
                                                                                                                           Division

         Administration Officer                                                      Grants Manager
                                                                                                                     Resource Section

                                                                           EMPG                     Hazard
         Program Analyst                                                                           Mitigation        Resource Manager
                                                                          Planner
                                                                                                  Coordinator

                                                                                                                         Resource
         Financial Analyst                                                           EMPG Planner                        Specialist


          Procurement                                                                                             Communications Section
            Specialist
                                                    Training and Exercise Program Division
                                                                                                                     Communications
        Technical Financial                                                                                             Manager
             Analyst                            Training Section                      Exercise Section


                                                 State Training                        State Exercise                Communications
          Administrative
                                                  Coordinator                           Coordinator                    Technician
            Assistant


                                            Assistant Training                       Assistant Exercise             Technology Section
                                              Coordinator                              Coordinator


                                                                                                                    Federal Programs
                                                                      CERT Section
                                                                                                                      Coordinator


                                                                      CERT Program                                     Information
                                                                        Manager                                        Technology
                                                                                                                        Technician



   Source: CNMI HSEM 





www.oig.dhs.gov                                                            25                                                            OIG-14-05

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix E
   Threat and Hazard Identification and Risk Assessment
   The National Preparedness System establishes the process to define and achieve specific
   capability targets and meet the National Preparedness Goal. One of the six components
   of the National Preparedness System includes identifying and assessing risk. The Threat
   and Hazard Identification and Risk Assessment (THIRA) provides a comprehensive
   approach for identifying and assessing risks and associated impacts, using the core
   capabilities identified in the National Preparedness Goal and employing the following
   five-step process:

       1.	 Identify threats and hazards;
       2.	 Give threats and hazards context (assess vulnerability, how they affect the community);
       3.	 Examine core capabilities using the threats and hazards (estimate consequences,
           impacts to the community);
       4.	 Set capability targets; and
       5.	 Apply the results (use results for planning and preparedness activities, identify means to
           deliver target level of capability).

   THIRA submission is required of all 56 States and territories receiving HSGP and
   Emergency Management Performance Grant funds and 31 eligible UASIs. The first THIRA
   submission was due December 31, 2012. Subsequent submissions will be an annual
   performance requirement for FEMA preparedness grant awards.

   In addition to the THIRA, States and territories receiving FEMA preparedness grants are
   required to annually submit a State Preparedness Report. FEMA officials state that
   THIRA results and the State Preparedness Report will provide a quantitative summary of
   preparedness, document current capabilities and potential shortfalls, and set priorities
   for addressing shortfalls. FEMA officials also state that the State Preparedness Report
   results will be used by the States to identify funding requirements and set priorities for
   subgrantee project applications. The grant application (investment justification) must
   demonstrate how proposed projects address gaps and deficiencies in delivering one or
   more core capabilities outlined in the National Preparedness Goal, and as FEMA officials
   state, address capability gaps reported in the State Preparedness Report.

   FEMA officials said that the FY 2013 Homeland Security Grant Program funding
   announcement will require applicants to map proposed investments to specific core
   capabilities and capability gaps identified in the State Preparedness Reports, linking
   investments to actions that build and sustain capabilities aligned with the National
   Preparedness Goal. We have not had the opportunity to audit this process or the
   outcomes for this State.
www.oig.dhs.gov                                   26                                    	       OIG-14-05

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  27                        OIG-14-05

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
